          Federal Housing Finance Agency
              Office of Inspector General




    Kearney & Company, P.C.’s
   Independent Evaluation of the
 Federal Housing Finance Agency’s
    Office of Inspector General’s
Information Security Program-2013




 Audit Report  AUD–2014-002  October 31, 2013
AUDIT OBJECTIVE: The objective of this performance audit was to evaluate FHFA-OIG’s
information security program and practices, including FHFA-OIG’s compliance with the Federal
Information Security Management Act of 2002 (FISMA) and related information security
policies, procedures, standards, and guidelines.


Because information in this report could be abused to circumvent FHFA-OIG’s internal controls,
it has not been released publicly.
